                  

                
                     U.S. ENVIRONMENTAL PROTECTION AGENCY 
                
                     OFFICE OF INSPECTOR GENERAL 



                     Review of Hotline Complaint
                     Concerning the Region 4
                     Environmental Justice Small
                     Grants Selection Process
                     Report No. 13-P-0299                    June 21, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Andres Calderon
                                                   Ming Chang
                                                   Jerri Dorsey
                                                   Heather Drayton
                                                   Kalpana Ramakrishnan
                                                   Patricia Taylor




Abbreviations

EJ            Environmental Justice
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
OEJ           Office of Environmental Justice
OIG           Office of Inspector General


Cover photo: The hydroponic garden at the Miami Science Museum. The museum received
             an FY 2012 Environmental Justice Small Grant for a gardening project that
             promotes environmental justice and encourages healthy, environmentally
             friendly alternatives to industrially produced agriculture. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0299
                                                                                                          June 21, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Review of Hotline Complaint Concerning the
The U.S. Environmental              Region 4 Environmental Justice Small Grants
Protection Agency, Office of        Selection Process
Inspector General, received an
anonymous hotline complaint          What We Found
concerning the review and
selection process for the EPA       Our review of the EPA’s Region 4 Office of Environmental Justice found that
Region 4 environmental justice      management had controls in place to protect against bias, fraud, and preselection
grants. The goal of the EPA’s       of EJ Small Grants recipients during FYs 2010, 2011 and 2012. We found that the
Environmental Justice Small         Region 4 OEJ followed EJ Small Grants policies and procedures when selecting
Grants Program is to help           EJ Small Grants recipients, with the exception of one requirement. We found that
communities build joint             the Region 4 OEJ did not ensure all review panelists are “knowledgeable about
partnerships to address             environmental justice prior to serving,” a requirement of the EPA Order 5700.5A1,
environmental and public health     but adhered to the other policies and procedures during the period we reviewed.
issues. The complaint
questioned whether certain          During interviews with a sample of review panelists, we found no evidence that
applicants received preference      EJ Small Grants applicants received preference or were preselected for awards
and were preselected for            from FY 2010 through FY 2012. Additionally, during interviews with a sample of
grants. The complaint also          review panelists, we found no evidence that Region 4 OEJ leadership supported
questioned whether Region 4         or targeted a select audience for grants.
management targeted a select
audience. The purpose of this       Some review panelists we interviewed suggested that additional training on
review was to determine             objectivity and understanding the ranking criteria would be helpful. We also found
whether the Region 4 Office of      that review panelists were not informed of the final selection of EJ Small Grants
Environmental Justice followed      recipients. Additionally, review panelists were not offered a debriefing meeting to
policies and procedures when        provide suggestions on the process. Inadequate review panelist training and a
selecting EJ Small Grants           lack of follow-up and communication on the final selection of grant recipients may
recipients for fiscal years 2010,   have contributed to perceptions that the EJ Small Grants review and selection
2011 and 2012.                      processes were improperly executed.
This report addresses the
following EPA Goal or                Recommendations and Planned Agency Corrective Actions
Cross-Cutting Strategy:
                                    We recommend that the Region 4 OEJ director provide adequate training to
 Working for environmental         ensure that review panelists are knowledgeable about environmental justice prior
  justice and children’s health.    to serving on EJ Small Grants consensus review panels. We also recommend
                                    additional training on objectivity and the definition of each ranking criterion.
                                    Further, we recommend that the Region 4 OEJ obtain feedback from review
                                    panelists, as well as notify panelists when recipients are selected for awards.
For further information, contact
our Office of Congressional and     Region 4 OEJ agreed with all four recommendations and provided corrective
Public Affairs at (202) 566-2391.   actions with estimated dates of completion. We believe that three of the proposed
                                    corrective actions address our recommendations. We consider three of the four
The full report is at:              recommendations resolved and open pending completion of corrective actions.
www.epa.gov/oig/reports/2013/
                                    The remaining recommendation is unresolved pending receipt of a revised
20130621-13-P-0299.pdf
                                    corrective action and estimated date of completion.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                               June 21, 2013

MEMORANDUM

SUBJECT:	 Review of Hotline Complaint Concerning the Region 4
          Environmental Justice Small Grants Selection Process
          Report No. 13-P-0299

FROM:	         Arthur A. Elkins Jr.

TO:	           A. Stanley Meiburg, Acting Regional Administrator
               Region 4

               Denise Tennessee, Acting Director 

               Region 4 Office of Environmental Justice 


This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. The agency agreed with all four
recommendations and provided corrective actions with estimated dates of completion. We believe that
three of the four proposed corrective actions address our recommendations. We consider three of the
four recommendations resolved and open pending completion of the corrective actions. The remaining
recommendation is unresolved pending receipt of a revised corrective action and estimated date of
completion.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. Please provide a revised corrective action and estimated date of completion for
the one unresolved recommendation. Your response will be posted on the OIG’s public website, along
with our memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. The final response should not contain data that you do not want to be released to the
public. If your response contains such data, you should identify the data for redaction or removal along
with corresponding justification. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact the Assistant Inspector
General for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov;
or the Acting Director for Toxics, Chemical Management, and Pollution Prevention Jerri Dorsey at
(919) 541-3601 or dorsey.jerri@epa.gov.
 
Review of Hotline Complaint Concerning the Region 4                                                                                  13-P-0299
Environmental Justice Small Grants Selection Process


                                      Table of Contents 


   Purpose          ....................................................................................................................    1


   Background .................................................................................................................             1


           Environmental Justice Small Grants ....................................................................                          1

           EPA Grants Competition Policy............................................................................                        2

           Grants Selection Processes .................................................................................                     2


   Scope and Methodology.............................................................................................                       2


   Results of Review .......................................................................................................                3


           Hotline Finding .....................................................................................................            3

           Review Panelist Training and Follow-Up..............................................................                             4


   Conclusions.................................................................................................................             5


   Recommendations ......................................................................................................                   5


   Agency Response and OIG Evaluation.....................................................................                                  6


   Status of Recommendations and Potential Monetary Benefits..............................                                                  7




Appendices
   A       Agency Response to Draft Report....................................................................                              8


   B       Distribution .........................................................................................................          11 

Purpose

                 The U.S. Environmental Protection Agency Office of Inspector General hotline
                 received an anonymous complaint letter about the EPA Region 41 environmental
                 justice grants selection process. The complaint questioned whether certain
                 applicants received preference or were preselected for awards. The complaint also
                 questioned whether the Region 4 Office of Environmental Justice targeted a select
                 audience. Our objective was to determine whether the Region 4 OEJ followed
                 policies and procedures when selecting EJ Small Grants recipients for fiscal years
                 2010, 2011 and 2012.

Background
                 Executive Order 12898, issued in 1994, directs federal agencies to include
                 environmental justice as part of their mission. Agencies should identify and
                 address disproportionately high and adverse human health or environmental
                 effects of its programs, policies and activities on minority and low-income
                 populations. The EPA and other agencies are required to develop an agency-wide
                 environmental justice strategy.

                 The EPA developed Plan EJ 2014 to include environmental justice in its
                 programs, policies and activities. The strategic document describes the “Grants
                 and Technical Assistance Goal” as a way to deliver financial and technical
                 assistance to communities. Grants are used to empower communities to improve
                 their health and environment. The plan named Region 4 as one of the lead regions
                 to support environmental justice community-based programs for local and tribal
                 organizations.

                 Environmental Justice Small Grants

                 The OEJ at EPA headquarters offers grants and cooperative agreements to fund
                 community-level environmental justice activities. Since 1994, the EJ Small
                 Grants Program has awarded $23 million to 1,253 community-based
                 organizations. The goal of the EJ Small Grants Program is to help communities
                 build joint partnerships to address environmental and public health issues.
                 EJ Small Grants are awarded on a competitive basis. According to the EJ Small
                 Grants Program, a successful project should include a well-designed strategic plan
                 that addresses local environmental and public health issues.

                 The Region 4 OEJ manages regional EJ Small Grants and is responsible for
                 integrating environmental justice into its regional, local, state, and other federal
                 government programs, policies, and procedures.


1
 EPA Region 4 includes the following states: Alabama, Florida, Georgia, Kentucky, Mississippi, North Carolina,
South Carolina, and Tennessee.


13-P-0299                                                                                                        1
                  EPA Grants Competition Policy

                  The EPA Order 5700.5A1, Policy for Competition of Assistance Agreements, 2
                  provides the agency with policy and requirements for grant competition. The
                  competition policy states that EPA grants should be awarded using an objective
                  and unbiased process. Grant competitions must be in line with U.S. Office of
                  Management and Budget guidance, and grant announcements should be made
                  available to the public on agency websites and on the federal grant solicitation
                  website.

                  The competition policy also sets requirements for grant competition
                  announcements. The announcements should include funding opportunity,
                  eligibility and submission information. The policy states that applications must be
                  objectively and fairly evaluated by review panelists that do not have a conflict of
                  interest with respect to the application or applicant. The policy also states that
                  review panelists should be knowledgeable in the field of endeavor for which
                  awards are being competed.

                  Grants Selection Processes

                  The EPA Order 5700.5A1 states that program offices may create a consensus
                  review panel (consensus panel) to review and evaluate grant applications.
                  Consensus panels are comprised of grant review panelists. Before a consensus
                  panel, review panelists must independently review applications. According to the
                  EPA headquarters’ OEJ Memorandum of Instructions for EJ Small Grant
                  Competitions, a subset of agency grant policy instructions, review panelists meet
                  during a consensus panel to discuss individual application scores. The reviewers
                  must reach a consensus on all scores. The grants competition policy states that
                  program offices should provide guidance and training to review panelists.
                  Program offices should supply a copy of the competition announcement, a
                  summary of the evaluation and award selection process, eligibility criteria,3 and
                  scoring guidelines. The competition policy also says review panelists must
                  provide explanations for the scores and ratings.

Scope and Methodology
                  We conducted our work from July 2012 through April 2013 in accordance with
                  generally accepted government auditing standards issued by the Comptroller
                  General of the United States. These standards require that we plan and perform
                  the review to obtain sufficient and appropriate evidence. This evidence is to
                  provide a reasonable basis for our findings and conclusions based on our review

2
  Assistance agreements include both grants and cooperative agreements. Grants do not have EPA staff involved
with projects. Cooperative agreements usually have an EPA project officer as part of the agreement’s activities.
3
  EJ Small Grants applicants have to pass two criteria. First, threshold eligibility criteria determine whether
applicants may be ineligible due to any legal, policy, administrative, and/or financial restriction. Second, the ranking
criteria include items such as the project’s budget, description and performance measures.


13-P-0299                                                                                                             2
            objectives. We believe the evidence we obtained provides a reasonable basis for
            our findings and conclusions based on our review objectives.

            In addition to reviewing the EPA Order 5700.5A1, we also reviewed the
            following:
                 Panelist training documents published by the EPA’s Office of Grants and
                    Debarment.
                 Region 4’s FY 2010 through FY 2012 EJ Small Grants documents.
                 The grant competition announcement and eligibility criteria.
                 Region 4’s request for volunteer review panelist documents.
                 EJ Small Grants review panelist training instructions and documents from
                    the OEJ at EPA headquarters and the OEJ in Region 4.
                 Review panelists’ signed conflict-of-interest forms.
                 Ranking and scoring documents from each year.

            We interviewed officials from the OEJ at EPA headquarters and in Region 4 to
            determine whether procedures and management controls were in place to guard
            against the preference or preselection of EJ Small Grants applications. We also
            interviewed a sample of FY 2010 through FY 2012 EJ Small Grants review
            panelists. We randomly selected seven review panelists to interview. The review
            panelists we interviewed served at least once during the FY 2010 through FY
            2012 EJ Small Grants process. We interviewed these review panelists to
            determine whether there was any perception of preferences or preselection of
            grantees during the consensus panels or by the Region 4 OEJ.

Results of Review
            With the exception of ensuring all review panelists are knowledgeable about
            environmental justice prior to serving, the Region 4 OEJ followed EJ Small
            Grants policies and procedures during the period we reviewed. The Region 4 OEJ
            had management controls in place to protect against bias, fraud, or preferential
            selection of EJ Small Grants recipients. However, during interviews with review
            panelists, we found further training was necessary. Additionally, review panelists
            did not receive follow-up information about the applications selected to receive
            grants. Inadequate review panelist training and lack of follow-up may have
            contributed to an impression that there was preferential or preselection of EJ
            Small Grants recipients in Region 4.

            Hotline Finding

            According to the EPA Order 5700.5A1, review panelists should be
            “knowledgeable in the field of endeavor for which awards are being competed.”
            The Region 4 OEJ did not meet this aspect of the order. The Region 4 OEJ sent a
            request throughout the region for volunteer review panelists from various EPA
            program offices. During interviews with our sample of EJ Small Grants review
            panelists, we found that some review panelists were not knowledgeable about


13-P-0299                                                                                     3
                 environmental justice issues or concerns prior to serving as review panelists. The
                 Region 4 OEJ stated there was preference to select volunteer review panelists
                 familiar with EJ issues and the EPA statutes, but the volunteers were not required
                 to have prior EJ knowledge.

                 With the exception of ensuring that all review panelists were knowledgeable
                 about environmental justice, we found that the Region 4 OEJ followed policies
                 and procedures when selecting FY 2010 through FY 2012 EJ Small Grants
                 recipients. We found that there was a separation of duties when determining an
                 applicant’s eligibility. For instance, the headquarters OEJ first determined
                 whether applications passed the threshold eligibility, then Region 4 review
                 panelists scored applicants based on the EJ Small Grants ranking criteria.

                 In accordance with the EPA Order 5700.5A1, each review panelist signed a
                 conflict-of-interest statement during FY 2010 through FY 2012. The EPA’s
                 headquarters OEJ and the Region 4 OEJ provided training on basic environmental
                 justice information, objectivity, ranking criteria, and guidance on how to rank and
                 score applications based on ranking criteria. According to Region 4 EJ Small
                 Grants ranking and scoring documents, review panelists first individually scored
                 grant applications based on ranking criteria. Review panelists discussed applicant
                 qualifications in order to reach consensus agreement on scores.4 Applications
                 were ranked by regional staff. Applications were then sent to the EPA’s
                 headquarters OEJ, which made the final selection of EJ Small Grants recipients.

                 During interviews with our sample of EJ Small Grants review panelists, no one
                 reported any perceived evidence of applicants receiving preference or being
                 preselected for awards. Additionally, no one believed the Region 4 OEJ
                 leadership supported or targeted a select audience for grants.

                 Review Panelist Training and Follow-Up

                 During our review, we noted that additional training and follow-up
                 communication could improve the Region 4 EJ Small Grants review and selection
                 process. First, some of our sample review panelists reported additional training on
                 objectivity should be provided. Some review panelists noted that the additional
                 training on objectivity would reduce personal biases and should be reinforced at
                 the beginning of consensus meetings.

                 Our interviews with review panelists revealed that both new and repeat volunteers
                 stated that additional training on the meaning of each ranking criterion would also
                 be helpful. As stated earlier, consensus panels were used to discuss an
                 application’s strengths and weaknesses based on ranking criteria. Some review
                 panelists who were interviewed said additional training would help new review
                 panelists understand the meaning of each criterion. Review panelists stated that a

4
  Only applications with a large variability in scores among the review panelists were discussed during consensus
review panels.


13-P-0299                                                                                                           4
               better understanding of the criterion would reduce differences in individual
               scores.

               Second, the Region 4 OEJ did not offer a debriefing meeting to review panelists
               after the completion of the consensus panels. The Region 4 OEJ acknowledged
               accepting feedback from review panelists, but the feedback did not occur in a
               formal manner. Additionally, even after EJ Small Grants recipients were
               announced by the headquarters OEJ, Region 4 review panelists were not notified
               which applicants received awards.

Conclusions
               The Region 4 OEJ had management controls in place to protect against bias,
               fraud, and the preselection of grant recipients for FY 2010 through FY 2012 EJ
               Small Grants. However, Region 4 did not ensure that review panelists were
               knowledgeable about environmental justice issues prior to reviewing applications.
               Based on interviews with a sample of review panelists, we found some were
               inadequately trained on ranking criteria and objectivity. Additionally, review
               panelists were not notified which applicants were chosen to receive grants. Each
               of these factors may have contributed to perceptions of preferences or the
               preselection of EJ Small Grants recipients.

               The Region 4 OEJ said changes will be made to the upcoming FY 2013 EJ Small
               Grants review and selection process. Officials plan to ensure that review panelists
               are knowledgeable about environmental justice prior to serving on a review panel
               and that additional training on objectivity is provided. The Region 4 OEJ also said
               it will request feedback from review panelists and notify panelists which
               applicants were selected for awards once the headquarters OEJ announces grant
               recipients.

Recommendations

      We recommend that the director of the Region 4 Office of Environmental Justice update
      existing procedures to:

            1.	 Provide adequate training to ensure volunteer review panelists are knowledgeable
                about environmental justice prior to serving as EJ Small Grants review panelists.

            2.	 Provide additional training on objectivity and the meaning of each environmental
                justice grant criterion.

            3.	 Obtain feedback from review panelists on ways to improve the grant review and
                selection process, including the consensus panels.

            4.	 Notify review panelists when EJ Small Grants applicants are selected for an
                award.


13-P-0299                                                                                        5
Agency Response and OIG Evaluation
            In its response to the draft report, the EPA agreed to all four recommendations
            and provided corrective actions with estimated dates of completion. We believe
            that recommendations 1, 3 and 4 are addressed by the proposed corrective actions.
            We require a revised corrective action and estimated date of completion for
            recommendation number 2. The OIG requires additional information pertaining to
            how objectivity and scoring criteria will be addressed in their training.

            We consider recommendation numbers 1, 3 and 4 resolved and open pending the
            completion of corrective actions. Recommendation number 2 is unresolved
            pending receipt of an agreed-upon corrective action and estimated date of
            completion. The agency’s complete response is in appendix A.




13-P-0299                                                                                   6
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
             Page                                                                                                 Completion   Claimed    Agreed-To
Rec. No.      No.                         Subject                        Status1         Action Official             Date      Amount      Amount

     1         5	   Provide adequate training to ensure volunteer                  Director, Region 4 Office of       O
                    review panelists are knowledgeable about                         Environmental Justice
                    environmental justice prior to serving as
                    EJ Small Grants review panelists.

     2         5	   Provide additional training on objectivity and the             Director, Region 4 Office of       U
                    meaning of each environmental justice grant                       Environmental Justice
                    criterion.

     3         5	   Obtain feedback from review panelists on ways to               Director, Region 4 Office of       O
                    improve the grant review and selection process,                   Environmental Justice
                    including the consensus panels.

     4         5	   Notify review panelists when EJ Small Grants                   Director, Region 4 Office of       O
                    applicants are selected for an award.                             Environmental Justice




1   O = Recommendation is open with agreed-to corrective actions pending.

    C = Recommendation is closed with all agreed-to actions completed.

    U = Recommendation is unresolved with resolution efforts in progress.





13-P-0299                                                                                                                                        7
                                                                                    Appendix A

                  Agency Response to Draft Report
 May 17, 2013

 SUBJECT:       Draft Report: Review of Hotline Complaint Concerning the
                Region 4 Environmental Justice Small Grants Selection
                Process, Project No. OPE-FY12-0017
 FROM:          Gwendolyn Keyes Fleming
                Regional Administrator

                Denise Tennessee, Acting Director
                Office of Environmental Justice

 TO:            Carolyn Copper
                Assistant Inspector General for Program Evaluation

This response will address the factual accuracy of the Draft Report, dated April 18, 2013,
and provide comments on the findings and recommendations. We appreciate the
comprehensive review of the Environmental Justice Small Grants Program (EJSG) because
it provided an objective assessment of how the program is being implemented by the
Region 4 Office of Environmental Justice (OEJ). Based on the interviews your team
conducted and their research, the report is factually accurate and I concur with the findings
and recommendations.

The report noted that some review panelists were not knowledgeable about environmental
justice (EJ), and they wanted more in-depth training on ranking criteria and maintaining
objectivity during the review. Historically, review panelists were selected because they had
an interest in environmental justice; were aware of and worked on EJ projects and were
knowledgeable about the environmental statutes. Many, but not all, of them had previously
taken the Fundamentals of Environmental Justice Training (a 2-day course). As you noted,
the EPA headquarters and Region 4 OEJ provided training on EJ and information on
evaluating and scoring the applications, via teleconference prior to the review period.

In response to Recommendation 1 and in order to address your findings and increase the
reviewers' knowledge, the Region 4 OEJ will require all EJSG reviewers to have completed
the Fundamentals of Environmental Justice course. This 2-day training requirement will be
added to the Region 4 EJSG Standard Operating Procedure Handbook (SOP). To comply
with Recommendation 2, Region 4 OEJ will communicate to the Headquarters OEJ that we
want a more robust discussion about: 1) ranking and scoring criteria and 2) reviewer
objectivity to reduce personal bias. These topics will need to be more adequately addressed




13-P-0299                                                                                       8
in their training and Region 4 will continue to reinforce this message with the reviewers
before and during the consensus review process.

The report also noted that the regional review panelists were not provided a formal
opportunity to give their feedback and provide comments to improve the EJSG Program. In
response to Recommendation 3, Headquarters OEJ is currently addressing this issue
nationally and we are collaborating with them. They are hosting a teleconference on Jun 14,
2013, Reviewer Roundup, to allow all regional review panelists and EJ offices to provide
input on the EJSG Program. Region 4 OEJ has extended the invitation to all of our review
panelists and has encouraged them to participate and provide feedback. Recommendations
from the Reviewer Roundup will be incorporated into the Region 4 EJSG SOP.

The final recommendation is to notify the review panelists about the applications selected for
award. Historically, we have posted an announcement on the Region 4 website
congratulating the successful applicants that included a summary of projects’ objectives, and
it was also announced to the EJ Council. To comply with Recommendation 4, beginning
with the FY2013 awards, the review panelists will receive a link to the website to notify
them of the awardees. This notification process will be added to the EJSG SOP.

This summarizes our response to the comments and recommendations. If you have any
additional questions or concerns, please contact Denise Tennessee or my staff at (404) 562-
8460.




13-P-0299                                                                                        9
Number Recommendation                     High-Level Intended Corrective            Estimated
                                          Actions                                   Completion by
                                                                                    Quarter and
                                                                                    FY
1           Provide adequate training     Region 4 OEJ will require all EJSG        Q3/FY 2013
            to assure volunteer review    reviewers to have completed the
            panelists are                 Fundamentals of Environmental
            knowledgeable about           Justice course. This 2-day training
            environmental justice         requirement will be added to the
            prior to serving as EJ        Region 4 EJSG Standard Operating
            Small Grants review           Procedure Handbook (SOP).
            panelists.

2           Provide additional            Region 4 OEJ will communicate to          Q4/FY 2013
            training on objectivity and   the Headquarters OEJ that we want
            the meaning of each           a more robust discussion about: 1)
            Environmental Justice         ranking and scoring criteria and 2)
            Small Grant criterion         reviewer objectivity to reduce
                                          personal bias. These topics will
                                          need to be more adequately
                                          addressed in their training and
                                          Region 4 will continue to reinforce
                                          this message with the reviewers
                                          before and during the consensus
                                          review process. The need for this
                                          discussion will be added as a topic in
                                          the EJSG SOP.
3           Obtain feedback from          Recommendations from the                  Q3/FY 2013
            review panelists on ways      Headquarters’ Reviewer Roundup
            to improve the grant          m e e t i n g will be incorporated into
            review and selection          the Region 4 EJSG SOP.
            process, including the
            consensus panels.
4           Notify review panelists       Beginning with the FY2013                 Q4/FY 2013
            when EJ Small Grants          awards, the review panelists will
            applicants are selected for   receive a link to the website to
            an award.                     notify them of the awardees. This
                                          notification process will be added
                                          to the EJSG SOP.




13-P-0299                                                                                        10
                                                                              Appendix B
                                   Distribution
Office of the Administrator
Regional Administrator, Region 4
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Regional Administrator, Region 4
Director, Office of Environmental Justice, Region 4
Director, Office of Environmental Justice (Headquarters)
Deputy Director, Office of Environmental Justice (Headquarters)
Audit Follow-Up Coordinator, Region 4
Audit Follow-up Coordinator, Office of Environmental Justice (Headquarters)




13-P-0299                                                                            11
